    OFFICE OF INSPECTOR GENERAL


   MANAGEMENT LETTER: AUDIT OF THE
U.S. INTERNATIONAL TRADE COMMISSION'S
        FINANCIAL STATEMENTS FOR
         FISCAL YEARS 2006 AND 2005

             Audit Report
             OIG-AR-02-07




                              May 16,2007
      UNITED STATES INTERNATIONAL TRADE COMMISSION
                                 WASHINGTON, DC 20436

May 16,2007                                                                    OIG-EE-016




TO:            THE COMMISSION

SUBJECT:       Management letter: Audit ofthe u.s. International Trade Commission's
               Financial Statements for Fiscal Years 2006 and 2005 (OIG-AR-02-07)

The subject management letter is attached. This work was performed in connection with
the audit of the financial statements of the U.S. International Trade Commission
(USITC/Commission) for the fiscal years 2006 and 2005 (OIG-AR-01-07, November 14,
2006). The audit did not detect internal control deficiencies deemed to be reportable
conditions or material weaknesses. However, the Commission needs to: strengthen
controls and oversight of procurement activity; issue guidance for controlling fixed assets
and accountable property; improve procedures for depositing funds; and issue guidance
on taxing employee awards.

We made five recommendations to correct the identified deficiencies. In the written
response to our draft report signed by the Commission's Chairman, the Commission did
not agree with two recommendations, partially agreed with one recommendation, and
fully agreed with two recommendations. We incorporated the response in the body of
this report and included it in detail as Appendix A.

The OIG stands by its findings and encourages prompt action towards implementing the
recommendations in this report. In January 2007, the OIG advised the Chairman, Chief
Financial Officer and key officials of a new auditing standard, Statement on Auditing
Standard (SAS) 112, "Communicating Internal Control Related Matters Identified in an
Audit" which will be effective for the fiscal year 2007 audit engagement. This standard
lowers the threshold of internal control weaknesses. As a result, comments which were
included within past management letters could potentially be included as significant
deficiencies or material weaknesses within the Commissions' audit report. Since the
Commission's implementation of the Accountability of Tax Dollars Act of2002, our
audit reports on the agency's financial statements has been unqualified, and the reports
did not identify any reportable conditions or material weaknesses.
With the requirements of SAS 112, numerous government agencies stand the risk of
having internal control weaknesses disclosed within its financial statements audit report
under the new standard. Therefore, the Commission should ensure that all
recommendations included within this report have been rectified.



                                                  rv~
                                                     Jean Smith
                                                     AssistantInspector General for Audit




cc:    O'Connor & Drew, P.C.
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07


TABLE OF CONTENTS

I.     SUMMARY OF RESULTS                                                                    1

II.    BACKGROUND                                                                            4

III.   OBJECTIVE                                                                             5

IV.    METHODOLOGY AND SCOPE                                                                 5

V.     DETAILS OF RESULTS                                                                    6
       A.    STATUS OF PRIOR YEAR AUDIT RECOMMENDATIONS                                      6

       B.    CONTROLS AND OVERSIGHT OF PROCUREMENT ACTIVITY NEED
             STRENGTHENING                                                                    7
             Recommendation 1                                                                10
             Management Response                                                             10
             OIG Comment.                                                                    11
             Recommendation 2                                                                11
             Management Response                                                             12
             OIG Comment                                                                     12

       C.    PROPERTY MANAGEMENT GUIDELINES ARE NEEDED                                       12
             Recommendation 3                                                                14
             Management Response                                                             14
             OIG Comment.                                                                    14

       D.    PROCEDURE OVER DEPOSITING FUNDS NEEDS IMPROVEMENT                               15
             Recommendation 4                                                                15
             Management Response                                                             15
             OIG Comment.                                                                    15

       E.    FORMAL GUIDANCE ON TAXING EMPLOYEE AWARDS Is NEEDED                             16
             Recommendation 5                                                                16
             Management Response                                                             16
             OIG Comment.                                                                    16

APPENDIX A-MANAGEMENT'S RESPONSE                                                             17




                                                  Office ofInspector General
                                                       u.s. International Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07


I.        SUMMARY OF RESULTS
As a result of the audit of the financial statements of the U.S. International Trade
Commission (USITC/Commission) for the fiscal years 2006 and 2005, the Office of
Inspector General (OIG) issued an unqualified opinion. The audit did not detect internal
control deficiencies deemed to be reportable conditions or material weaknesses.
However, the Commission needs to: strengthen controls and oversight of procurement
activity; issue guidance for controlling fixed assets and accountable property; improve
procedures for depositing funds; and issue guidance on taxing employee awards.

We made five recommendations to correct the identified deficiencies. In the written
response to our draft report signed by the Commission's Chairman, the Commission did
not agree with two recommendations, partially agreed with one recommendation, and
fully agreed with two recommendations. Below is a summary of the findings, related
recommendations, and management and OIG comments. Management comments and
our evaluation of those comments are provided with the applicable recommendation in
the body of this report. Management's full response is presented in Appendix A.

          Controls and Oversight of Procurement Activity Need Strengthening

The Commission continued to have problems managing procurement activity. Both this
year's and last year's audit found financial reporting of obligations was not always
accurate because designated officials did not always forward procurement requests to the
Office of Finance to obligate the funds, or properly post orders into the appropriate
procurement system. The audits also found several purchases that exceeded the
authorized spending limit. Finally, although the Office of Finance provided cost center
managers (CCMs) with monthly accounting reports to verify charges, Finance did not
know whether CCMs reviewed the reports because feedback was not required.

Recommendation 1 -The Director, Office of Administration should formally remind
CCMs oftheir financial responsibility to ensure procurements are properly recorded and
do not exceed the allowable limit. The reminder should also direct CCMs to identify any
employee who may be in need of more training on processing all types of procurement
activity and make the training available to the employee.

The Commission disagreed with the finding and recommendation. The OIG does not
agree with the Commission and considers this recommendation open. The Commission
did not respond to the spending problems.

Recommendation 2 - The Director, Office of Administration should issue procedures
requiring CCMs to verify that their requested action was accurately entered into the
Commission's procurement records by reviewing Office of Financial Management's
Procurement Requisition Log for items posted in the PRISM I and the Blanket Purchase
Agreement (BPA) Database. Each CCM should be required to: (1) perform a monthly

1 PRISM   is a procurement system maintained by the Office of Facilities Management
                                                    1
                                                                Office ofInspector General
                                                                       u.s. International Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07
reconciliation of PRISM and BPA Database with the monthly accounting reports to
ensure transactions are accurately obligated and (2) provide the results of the
reconciliation to the Office of Finance.

The Commission disagreed with the recommendation, but agreed to work to improve the
accuracy of the BPA database. The OIG considers this recommendation open. While we
support the Commission's reconciliation of procurement activity by the Office of
Administration, further action is needed to ensure the Commission has timely and
accurate data.

                    Property Management Guidelines Are Needed

The Commission was at risk of a material misstatement of its fixed assets if this audit had
not identified two disposed fixed assets and brought it to management's attention.
Additionally, the Office of Information Technology Services (ITS) did not maintain an
accurate automated data processing (ADP) inventory list. These problems occurred
because ITS staff either inaccurately completed a Property Action Form 110 or did not
complete the form. Form 110 is used to record the location of the transferred equipment
and update the inventory list. We reported this failure in our prior three audits, but
inaccurate inventory records remain.

Recommendation 3 - The Director, Office of Administration should ensure an
Administrative Notice is issued which provides guidance for controlling fixed assets and
accountable property. This guidance should clarify procedures and assign responsibilities
for controlling all types of assets. The guidance should also:

    •   Address the responsibilities associated with the operation of the ADP inventory
        database; and

   •    Include a requirement to perform an inventory of fixed assets on a quarterly basis
        in sufficient time to ensure the fixed assets reported on the quarterly statements
        are accurate. Also, the fixed assets inventory list should be shared with the
        information technology staff to ensure they are aware of what items are fixed
        assets for their proper completion of the Form 110 when transferring a fixed asset.

The Commission disagreed in part with the recommendation. Specifically, it stated:
(1) it has well established procedures and understands the responsibility for maintaining
the ADP inventory. It has never been their intent to assume the inventory to be 100
percent accurate. However, it will continue its efforts to regularly monitor all items and
update the inventory list as often as possible, and it will continue to perform an annual
inventory, and (2) the Director of Facilities Management and the Chief Information
Officer (CIO) will ensure that quarterly inventories are conducted of Commission fixed
assets (any single item valued at $50,000 or more at the time of purchase) and the results
will be used to prepare quarterly financial statements.



                                             2
                                                        Otfice ofInspector General
                                                             u.s. International Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07
The OIG considers this recommendation open. (l) While the missing ADP inventory was
ultimately located, this year's audit found an error rate of nine percent. Subsequent to our
issuing the draft report, a CIa official and the aIG agreed that controls could be
strengthen by placing a reminder on the ADP terminal advising users to notify the CIa
when equipment is relocated. Implementation of this action should provide the
Commission with more accurate inventory records and a more efficient annual physical
ADP inventory. (2) The Director of Facilities Management and the CIa actions to
effectively control fixed assets met the intent of the recommendation.

                Procedure over Depositing Funds Needs Improvement

Although the Director, Office of Finance issued desk procedures in fiscal year 2005 for
processing deposits, funds were not always deposited within the established timeframe.
The delay in making the deposits occurred because the designated official responsible for
depositing funds was on leave, and the two alternates had not been trained to make the
deposits or received procedures to ensure they are made aware when their services are
needed. A delay in making deposits increases the risk of theft and the risk of material
misstatements.

Recommendation 4 - The Director, Office of Finance should ensure the alternate people
who serve as back-up to the primary person responsible for depositing funds are properly
trained to make the deposits. Also, procedures should be developed to ensure the
alternates are aware when their services are needed.

The Commission concurred with the recommendation. The Director of Finance is
restructuring the way fund deposits are handled and controlled. Finance staff will be
trained on the new procedures.

              Formal Guidance on Taxing Employee Awards Is Needed

In response to our finding last year, the Commission took appropriate action to ensure
employee gift certificate awards are included as supplemental wages, but formal guidance
was not developed. While the above effort is commendable, written guidelines were not
developed to document the procedure in the event an individual involved in the procedure
is reassigned or to inform potential recipients that gift certificate awards are taxable.

Recommendation 5 - The Director, Office of Finance should issue formal procedures for
processing and controlling employee awards to ensure proper tax treatment. These
procedures should be made available to all Commission employees to provide notice of
the awards and the applicable taxes.

The Commission concurred with the recommendation. The Director of Finance will issue
a written policy on tax payments on employee awards. The Director of Finance will also
issue explanatory guidelines to all Commission employees on how taxes affect award
payouts.


                                             3
                                                        Office ofInspector General
                                                              u.s. International Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07

II.      BACKGROUND

Under the Accountability of Tax Dollars Act of2002 (Public Law 107-289, November 7,
2002), the Commission is required to submit to Congress and the Office of Management
and Budget (OMB) annual audited financial statements. The financial statements must be
prepared in accordance with the policies prescribed in OMB Bulletin 01-09, Form and
Content ofAgency Financial Statements.

The annual financial statements of the Commission consisted of the following:

      1. Management discussion and analysis
      2. Basic statements and related notes, which included the following:
             ~ Balance Sheets
             ~ Statements of Net Cost
             ~ Statements of Changes in Net Position
             ~ Statements of Budgetary Resources
             ~ Statements of Financing
             ~ Statements of Custodial Activity


Commission Directive 2102.0, Financial Management System Policies, illustrates the
Commission's policies and procedures regarding the financial management system. The
Directive assigns general responsibilities for maintaining the financial management
system to the following individuals:

             ~   The Chairman is responsible for ensuring that the financial management
                 system is properly established and maintained.

             ~   The Director, Office of Administration, is responsible for coordinating the
                 overall agency-wide effort of reviewing, improving, and reporting on the
                 financial management system.

             ~   The Director, Office of Administration, and subordinates, are responsible
                 for their assigned subsystems. This responsibility includes ensuring that
                 the system is established, maintained, reviewed, improved and reported
                 upon in accordance with OMB Circular A-127, Management
                 Accountability and Control.

             ~   The Director, Office of Finance, is responsible for providing technical
                 assistance and advice for reviewing and improving the Commission's
                 financial management system; performing reviews of the financial
                 management system; and advising the Director, Office of Administration,
                 as to whether the Commission's financial management system is in
                 accordance with OMB guidelines.




                                              4
                                                         Office ofInspector General
                                                               u.s. International Trade Commission
Management Letter: Audit ofthe U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                  OIG-AR-02-07

III.       OBJECTIVE

The overall objective of a management letter is to present findings and recommendations
for improvements in internal control that were identified during the course of the audit of
the Commission's financial statements that were not considered as reportable conditions
which would have warranted disclosure in the auditor's report.


IV.        METHODOLOGY AND SCOPE

We engaged O'Connor & Drew, P.e. to assist in conducting the audit of the financial
statements for the year ended September 30, 2006. The internal control and compliance
phase ofthe audit was performed during the months of July and August 2006. The
fieldwork relating to the audit of the financial statements occurred during the month of
October 2006.

We reviewed applicable policies and procedures and interviewed Commission employees
to identify and evaluate the Commission's implementation of recommendations made in
our prior financial system audit titled Management letter: Audit ofthe Us. International
Trade Commission's Financial Statements for Fiscal Years 2005 and 2004, (Audit
Report OIG-AR-02-06, dated March 31, 2006), and tested controls over financial data.
We interviewed Commission employees in the Offices of Administration, Finance,
Facilities Management, Human Resources, and ChiefInformation Officer. Specifically,
we evaluated:

       ~   Internal control policies and procedures over disbursements. We tested 55
           transactions for:
               • Proper authorization for the disbursement;
               • Compliance with purchase thresholds;
               • Allowable purchases under the Commission's guidelines;
               • Documentation for transaction;
               • Receipt of the merchandise; and
               • Timely payment of the purchase.

       ~   Internal control policies and procedures over payroll. We examined 45 payroll
           transactions to determine whether:
               • All required personnel forms were completed;
               • Time and attendance information for selected pay periods agreed with
                   source documents;
               • Payroll for selected pay periods was properly authorized;
               • Voluntary withholdings were properly administered;
               • Compliance with federal guidelines as noted within the Financial Audit
                   Manual (FAM) relating to payroll withholdings; and if
               • Employees existed.


                                             5
                                                        Office ofInspector General
                                                             u.s. International Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07
      ~   Internal control policies and procedures regarding accountable property items.
          We randomly selected 45 items, and determined whether:
              • Each item was physically present;
              • Property was bar coded;
              • Property Action Form 110 was completed, if applicable; and
              • The Cost Center Manager performed the annual inventory.

      ~   Policies and procedures over capital property. We evaluated all current year
          additions with the supporting documentation.

      ~   Internal control policies and procedures over cash reporting and accounts
          receivable. We reviewed a sample of cash related reconciliations and deposits for
          fiscal year 2006.

      ~   We verified compliance with applicable laws and regulations including
          compliance with the Federal Managers' Financial Integrity Act (FMFIA) of 1982.

The review was conducted in accordance with Government Auditing Standards, 2003
Revision, as amended, promulgated by the Comptroller General of the United States; and
OMB Bulletin No. 06-03, Audit Requirementsfor Federal Financial Statements.


v.        DETAILS OF RESULTS


          A.       Status of Prior Year Audit Recommendations

          The Commission fully completed action and effectively implemented one of the
          five recommendations made from the September 30, 2005 financial statement
          audit'. During fiscal year 2006, the Director of Administration created a
          Management Control Plan to ensure managers annually evaluated and reported on
          the adequacy of their assigned programs as required by FMFIA. This plan
          outlines the steps the Commission will follow to satisfy the FMFIA requirement
          stipulated in OMB Circular A-I23, Management's Responsibility for Internal
          Control. Furthermore, the Commission plans to periodically review the self
          assessment to verify compliance with the professional standards defined within
          OMB A-l23. The control assessments scheduled by management for 2006 were
          (1) Budget Formulation and Evaluation; (2) Accounts Receivable; and (3)
          Accounts Payable.

          We tested internal controls over the above three areas as part of the 2006 financial
          statement audit and found no material weaknesses. However, the Commission
          needs to: strengthen controls and oversight of procurement activity; issue


2   Management letter: Audit ofthe u.s. International Trade Commission's Financial Statements for Fiscal
    Years 2005 and 2004, (Audit Report OIG-AR-02-06, dated March 31, 2006).
                                                    6
                                                                Office ofInspector General
                                                                       u.s. International Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07
      guidance for controlling fixed assets and accountable property; improve
      procedures for depositing funds; and issue guidance on taxing employee awards.



      B.     Controls and Oversight of Procurement Activity Need
             Strengthening

      The Commission continued to have problems managing procurement activity.
      Both this year's and last year's audit found financial reporting of obligations was
      not always accurate because not all activity was: properly posted in the
      appropriate procurement systems-PRISM and the Blanket Purchase Agreement
      (BP A) Database-or forwarded to the Office of Finance. The audits also found
      several purchases that exceeded the authorized spending limit. These problems
      occurred because the Senior Procurement Executive had not developed a process
      to ensure cost center managers (CCM) provide assurance that all purchases are
      properly made and timely recorded.

      In response to the prior year's audit, the Office of Facilities Management (OFM)
      developed a log of procurement activity in PRISM and made it available to
      Commission employees. Furthermore, the Office of Administration periodically
      reconciled the financial records with PRISM and the BPA database. However,
      these actions were not effective in managing procurements because designated
      officials did not always forward procurement requests to the Office of Finance to
      obligate the funds, or perform the last data entry step when entering an action in
      PRISM. This last step results in the transaction being reported as "released" in
      PRISM's Awarded Actions for All Vendors report. Finally, although the Office
      of Finance provided CCMs with monthly accounting reports to verify charges,
      Finance did not know whether CCMs reviewed the reports because feedback was
      not required.

      Commission Directive 3601.2, Procurement Policy, states that each CCM will be
      assigned a unique portiones) of the USITC budget by budget object
      classification(s) within their area of responsibility. CCM duties include:

             •   Certify availability of funds.
             •   Tracking requisitions, awards and receipts.
             •   Authorizing payment for completed transactions.
             •   Reconciling CCM tracking data with the Office of Finance
                 Expenditures Reports.

      The Senior Procurement Executive, who is also the Director, Office of
      Administration, is responsible for the management direction ofthe Commission's
      procurement system, including implementation of the unique procurement
      policies, regulations, and standards of the Commission. The Commission uses
      several systems to record purchase activity:
                                           7
                                                      Office ofInspector General
                                                            u.s. International Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07


             •   PRISM-Used by the Contract Specialists in OFM and Purchase Card
                 Holders for recording procurement and purchase card activity. OFM,
                 under the Office of Administration, is responsible for managing
                 PRISM. OFM made PRISM data available for review on the intranet
                 file "Procurement Requisition Log."
             •   Blanket Purchase Agreement Database-Used by the authorized
                 purchaser(s) and CCM for recording all purchases made against a
                 BPA, and managed by the Office of the Chief Information Officer.
             •   FedTraveler-Used by individuals authorized to travel for the
                 Commission for recording travel plans and expenses, and managed by
                 the Office of Operations.

      We selected a sample of 55 procurement actions taken throughout the fiscal year
      ending September 30, 2006 to trace from the request ofthe purchase to the
      payment made by the Office of Finance. For our first test, we randomly selected
      28 transactions-18 from PRISM's Awarded Actions for All Vendors report on
      procurement activity from October 1, 2005 to August 8, 2006 and 10 from
      invoices received in the Office of Finance during the week of our test. The 28
      transactions consisted of 10 purchase orders, 9 delivery orders, 6 BPAs, 2
      purchase cards, and 1 education reimbursement. Also, based on the procurement
      instrument, we selected a random sample of 10 transactions on BPAs; 7
      transactions on an Interagency Agreement; and 5 transactions each on travel credit
      cards and expense reports.

      For our first test, we found the Commission properly authorized and timely paid
      all 28 transactions sampled. However, not all transactions were properly posted in
      PRISM. Ofthe ten transactions sampled from invoices, four totaling $74,369
      could not be traced to the PRISM schedule-Awarded Actions for All Vendors.
      For the remaining 18 transactions sampled, we were not able to determine if the
      actions were timely posted in PRISM because adjustments can be made as errors
      and omissions are identified. However, a review of the Office of Administration's
      reconciliations with PRISM revealed a large number of invoices other than the 18
      that were noted as "not in procurement."

      Upon investigation with the Office of Administration personnel, it was
      determined that the appropriate information was not always sent to Office of
      Finance or processing was not completed in the PRISM system. An OFM
      contract specialist stated that PRISM's failure to report the transaction occurred
      because the authorized official entered information into PRISM, but did not
      complete all the steps necessary to release the transaction. Research of the four
      missing transactions revealed that Forms 51, Requisition for Equipment of
      Services and 347, Order for Supplies and Services had been generated as a result
      of entering the transactions in PRISM, but PRISM did not report the transactions.
      The accuracy of the PRISM schedule is critical because it is used by the Office of
      Administration to reconcile with the financial accounting system.

                                          8
                                                     Office ofInspector General
                                                           u.s. International Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07
      Proper processing and monthly reconciliations are critical to controlling
      procurement activity and accurately reporting financial activity. Of the four
      transactions not listed on the Awarded Actions for All Vendors report dated
      August 8,2006, only one transaction was timely obligated by the Office of
      Finance.

                  Transaction F 347    Invoice                Invoice   Estimate amount
                              "Date of received in            total     recorded in Federal
                              Order"   Finance                          Financial System
                  1           6/28/06    7/31/06              55,882.93        7/24/06
                  2           6/23/06    817/06*              11,053.00         8/15/06
                  3           7/06/06    7/31/06               4,818.32         8/15/06
                  4           3/23/06    6/29/06               2,615.00         3/28/06
                  *Cannot determme due to illegible date stamped on invoice.

      Blanket Purchase Agreement
      All ten randomly selected BPAs were correctly posted in PRISM with a zero
      dollar amount, but five transactions against the ten BPAs were not posted on the
      subsidiary log. Consequently, the Office of Finance did not obligate funds for the
      five transactions totaling $15,950. Furthermore, two transactions exceeded the
      allowable call limit on the respective BPA by $7,760 and $1,603, respectively.
      Lastly, transactions against one BPA exceeded the allowable deposit limit, which
      is the maximum total amount that can be spent, by $608.

      Procedures for obtaining services with a BPA include:

          •       The CCM forwards to OFM an approved Form 51, which shows the total
                  dollar amount, the dollar limit per transaction and individuals authorized
                  to purchase under the BPA.
          •       OFM enters the BPA into PRISM with a zero dollar amount.
          •       When a purchase is made off the BPA, either the CCM or authorized
                  individual will ensure the purchase is entered into the Blanket Purchase
                  Agreements (BPA) Database located on the USITC intranet.
          •       Periodically, the Office of Finance will review the BPA Database to
                  identify transactions requiring obligations.

      Interagency Agreement
      All 7 interagency agreement transactions were accurately posted in PRISM, timely
      obligated, and paid.

      Procedures for obtaining services with an Interagency Agreement include:

              •     The CCM supplies an approved Form 51 to OFM.
              •     A Contract Specialist in OFM enters the total dollar amount ofthe
                    Agreement's requisition in PRISM and an Interagency Agreement order
                    is created.
                                                    9
                                                                Office ofInspector General
                                                                        u.s. International Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07

            •   OFM forwards a copy of the Form 51 and the Interagency Agreement
                order to the Office of Finance.
            •   Office of Finance establishes the liability by obligating the funds when
                the contract is entered into. Payment is made automatically through an
                interagency transfer.

      Travel
      All expenditures from travel credit cards and travel expense reports were
      accurately entered into the Commission's FedTraveler and the Federal Financial
      Systems. Because these systems are not interconnected, the Office of Finance
      obtains a report from FedTraveler and enters the appropriate data into the Federal
      Financial System.


      In summary, the Commission needs to take prompt action to strengthen its
      controls and oversight of procurement activity. In light of the continuing
      resolution in fiscal year 2007, which is less than originally budgeted, the
      Commission is at risk of going into a deficit if the CCMs do not start ensuring that
      procurement activity is accurately posted and all expenditures are timely
      obligated.


      Recommendation 1
      The Director, Office of Administration should formally remind CCMs of their
      financial responsibility to ensure procurements are properly recorded and do not
      exceed the allowable limit. The reminder should also direct CCMs to identify any
      employee who may be in need of more training on processing all types of
      procurement activity and make the training available to the employee.


      Management Response
      The Commission disagreed with the finding and recommendation. The
      Commission stated that the Director of Administration and cost center managers
      are fully aware of their fiscal responsibilities. The status of cost centers,
      obligations, and expenditure rates are regularly discussed between office directors.
      Also, regular reconciliations take place on the Offices of Facilities Management,
      CIa and Administration Director cost centers. Any problems identified during
      reconciliations are corrected in a timely manner.

      The Commission also provided other principal comments. Specifically, it stated:
      (l) all 4 transactions were found to be entered into both the PRISM and the
      accounting system; (2) the Commission found the additional 18 transactions
      properly entered in the PRISM and accounting systems, except 1 transaction; (3)
      the reference to "a large number of invoices other than the 18 that were noted as
      not in procurement" is unclear.


                                          10
                                                      Otfice ofInspector General
                                                            us. international Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07
      OIG Comment
      The OIG considers this recommendation open. We do not agree with the first two
      principal comments. First, as we stated in our report, we found the four
      transactions were entered in PRlSM. However, because the final PRlSM
      processing step was not performed, PRlSM did not report them on the Awarded
      Actions for All Vendors as of August 8, 2006. The date of the orders ranged from
      March 23, 2006 to July 6, 2006. OMB Circular A-127 requires agencies to have
      financial management systems in place to process and record financial events
      effectively and efficiently, and to provide complete, timely, reliable and consistent
      information for decision makers and the public. Note: These four transactions
      represented 10 percent of our sample.

      Second, as we stated in our report, we did not draw any conclusions on whether
      the 18 transactions were properly entered in PRlSM. Third, the result of the
      Commission's reconciliation with PRlSM was that a large number of invoices
      were not in Procurement and required investigation. We reviewed documentation
      provided on the reconciliation and found this problem and other problems
      identified by the Office of Administration's contractor. We concluded that the
      reconciliation results only provided additional support that procurement
      transactions were not being effectively processed.

      The Commission did not respond to BPA reported problems. Fifty percent (five
      often) of the transactions sampled against BPAs were not posted during our
      fieldwork in the BPA Database. Accuracy of this database is vital to alert the
      Office of Finance to obligate funds. Additionally, one transaction exceeded the
      maximum amount that can be spent. Federal Acquisition Regulation (FAR) states
      the use of BPAs does not exempt an agency from the responsibility for keeping
      obligations and expenditures within available funds. The FAR also requires the
      BPA to specify the call limit and the maximum amount to be spent against the
      contract. The Government Accountability Office has determined that authorizing
      officials are responsible to repay the Government for unauthorized expenditures.



      Recommendation 2
      The Director, Office of Administration should issue procedures requiring CCMs
      to verify that their requested action was accurately entered into the Commission's
      procurement records by reviewing OFM's Procurement Requisition Log for items
      posted in PRlSM and the Blanket Purchase Agreement (BPA) Database. Each
      CCM should be required to: (1) perform a monthly reconciliation ofPRlSM and
      BPA Database with the monthly accounting reports to ensure transactions are
      accurately obligated and (2) provide the results of the reconciliation to the Office
      of Finance.




                                           11
                                                       Office ofInspector General
                                                             u.s. International Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07
           Management Response
           The Commission disagreed with the recommendation. The Commission agreed to
           work to improve the accuracy of the BPA database. However, it has been
           performing reconciliations of cost centers since last year.

           Also, since there is no connection between the requisition log and BPA database
           there is no guarantee that procurement actions were accurately posted in PRISM.
           Only verification with actual accounting and PRISM records constitute an actual
           reconciliation of the cost centers. BPA logs and PRISM records are examined as
           part of the normal monthly reconciliation process. This process provides
           reasonable assurance that transactions are recorded and obligated in a timely and
           accurate manner.


           OIG Comment
           The OIG considers this recommendation open. While we support the
           Commission's reconciliation of procurement activity by the Office of
           Administration, further action is needed to ensure the Commission has timely and
           accurate data. Review of the May 2006 reconciliation found transactions going
           back to October that required investigation. Since CCMs are most familiar with
           procurement actions in their assigned areas, we believe that CCMs could readily
           identify when further processing is needed. Additionally, the Commission
           assigned each CCM with the responsibility to reconcile CCM tracking data with
           the Office of Finance Expenditures Reports.



           c.      Property Management Guidelines Are Needed

           The Commission was at risk of a material misstatement of its fixed assets had not
           this audit identified two fixed assets were disposed and brought it to
           management's attention. Additionally, the Office ofInformation Technology
           Services (ITS) did not maintain an accurate automated data processing (ADP)
           inventory list. These problems occurred because ITS staff either inaccurately
           completed a Property Action Form 110 or did not complete the form. Form 110 is
           used to record the location of the transferred equipment and update the inventory
           list. We reported this failure in our prior three audits", but inaccurate inventory
           records remain.




3   Management Letter: Audit ofthe Us. International Trade Commission's Financial Statements for Fiscal
     Years 2005 and 2004, (Audit Report OIG-AR-02-06, dated March 31, 2006);
    Management Letter: Audit ofthe Us. International Trade Commission's Financial Statements for the
     Year Ended September 30, 2004 (OIG-AR-03-05, dated March 24, 2005) and
    Audit ofthe Us. International Trade Commission's Financial Management System Controls (OIG-AR-
     02-03, dated July 24,2003)
                                                    12
                                                                Office ofInspector General
                                                                       u.s. International Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07
      Commission Directive 3550.3, Property Management, states that the Director,
      Office of Facilities Management, is responsible for overall supervision and
      technical direction of the property management system, including disposition of
      property and the resolution of missing items. The Office of Facilities
      Management maintains a master property list of fixed assets and all accountable
      property other than ADP equipment. The Commission defined accountable
      property as sensitive and/or subject to potential theft-ADP equipment,
      televisions, video recorders, and cameras-and designated the ITS Director as the
      Accountable Officer for ADP equipment. This Accountable Officer is responsible
      for maintaining the master ADP property list and providing the list to the Office
      of Facilities Management. Furthermore, ITS must conduct an annual physical
      ADP inventory and report the results to the Office of Facilities Management.

      Fixed Assets
      Using the fixed asset list, we were unable to locate 2 assets because they were
      disposed during fiscal year 2006. These two fixed assets were valued at $74,016
      and $75,405 with a net book value of $7,402 and $7,540. Ifthe status of the two
      had not been discovered and adjustments made to the financial records, it would
      have result in a material misstatement in the Financial Section of the Performance
      and Accountability Report (PAR) submitted to OMB.

      OFM had not updated its fixed assets list regarding the two disposed assets
      because they were not advised of the action. ITS staff completed a Form 110 but
      it was not correctly filled out. The fixed assets that were disposed consisted of
      two computer servers made up of various components. When the servers were
      shipped to the surplus warehouse, the ITS staff completed the Form 110 for all the
      different components that made up the servers rather than the two individual
      servers.

      While guidance on completing Form 110 for fixed assets is warranted, it would be
      beneficial for OFM to do quarterly inventories, including one on September 30, to
      ensure that all Quarterly Statements and the PAR are free from material
      misstatements. OFM does do one inventory during January to ensure the schedule
      is accurate. However, a quarterly inventory would not be burdensome since there
      are only 11 pieces of equipment on the fixed asset list.

      ADP Inventory
      The location of 4 of the 45 randomly selected items from ITS' master ADP
      inventory list could not be readily identified. Though all four were ultimately
      found, an ITS official had to perform a search because a Form 110 was not
      completed for each of these items. An ITS official located the four items by
      manually scrolling through the ADP inventory database.

      While all ADP items were eventually located, failure to implement the required
      controls increases the risk of misstated financial records and the undetected loss of
      assets. During 2005 the Finance Director drafted guidance on controlling all types
      of accountable property, but no further action was taken.
                                            13
                                                      Office ofInspector General
                                                            u.s. International Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07



      Recommendation 3
      The Director, Office of Administration should ensure an Administrative Notice is
      issued which provides guidance for controlling fixed assets and accountable
      property. This guidance should clarify procedures and assign responsibilities for
      controlling all types of assets. The guidance should also:

                  •   Address the responsibilities associated with the operation of the
                      ADP inventory database; and

                  •   Include a requirement to perform an inventory of fixed assets on a
                      quarterly basis in sufficient time to ensure the fixed assets reported
                      on the quarterly statements are accurate. Also, the fixed assets
                      inventory list should be shared with the information technology
                      staff to ensure they are aware of what items are fixed assets for
                      their proper completion of the Form 110 when transferring a fixed
                      asset.


      Management Response
      The Commission disagreed in part with the recommendation. Specifically, it
      stated: (1) it has well established procedures and understands the responsibility for
      maintaining the ADP inventory. It has never been their intent to assume the
      inventory to be 100 percent accurate. However, it will continue its efforts to
      regularly monitor all items and update the inventory list as often as possible.
      Also, the CIa will continue to perform a full review of the ADP equipment
      inventory annually in order to provide reasonable assurance over accountability of
      these items; and (2) The Director of Facilities Management and the CIa will
      ensure that quarterly inventories are conducted of Commission fixed assets (any
      single item valued at $50,000 or more at the time of purchase) and the results will
      be used to prepare quarterly financial statements.

      Completion date: June 30, 2007


      OIG Comment
      The aIG considers this recommendation open. As stated in the Federal
      Managers' Financial Integrity Act of 1982, an agency must establish physical
      control to secure and safeguard vulnerable assets, such as equipment which might
      be vulnerable to risk of loss or unauthorized use. We acknowledged that the
      missing ADP inventory was ultimately located. However, since the Commission
      has had inaccurate ADP inventory records for the last four audits and this year's
      audit found an error rate of nine percent, revised guidelines should strengthen
      controls over this vulnerable asset.


                                           14
                                                       Office ofInspector General
                                                             u.s. International Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07
      Subsequent to our issuing the draft report, a CIa official and the OIG agreed that
      controls could be strengthen by placing a reminder on the ADP terminal advising
      users to notify the CIa when equipment is relocated. Implementation of this
      action should provide the Commission with more accurate inventory records and a
      more efficient annual physical ADP inventory.

      The Commission's actions to effectively control fixed assets met the intent of the
      recommendation.



      D.     Procedure over Depositing Funds Needs Improvement

      Although the Director, Office of Finance issued desk procedures in fiscal year
      2005 for processing deposits, funds were not always deposited within the
      established timeframe. A review of deposits disclosed six instances totaling
      $6,474 being deposited from 1 to 24 days beyond the prescribed timeframe. The
      timeframe was for a deposit to be made once every month, and if the amount on
      hand exceeds $1,000 then a deposit will be made by the end of the week. The
      delay in making the deposits OCCUlTed because the designated official responsible
      for depositing funds was on leave, and the two alternates had not been trained to
      make the deposits or received procedures to ensure they are made aware when
      their services are needed. A delay in making deposits increases the risk of theft
      and the risk of material misstatements.


      Recommendation 4
      The Director, Office of Finance should ensure the alternate people who serve as
      back-up to the primary person responsible for depositing funds are properly
      trained to make the deposits. Also, procedures should be developed to ensure the
      alternates are aware when their services are needed.


      Management Response
      The Commission concurred with the recommendation. The Director of Finance is
      restructuring the way fund deposits are handled and controlled. Finance staff will
      be trained on the new procedures.

      Completion date: May 30, 2007


      OIG Comment
      When accomplished, the above action will satisfy this recommendation.




                                          15
                                                      Office ofInspector General
                                                            u.s. International   Trade Commission
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                   OIG-AR-02-07

      E.      Formal Guidance on Taxing Employee Awards Is Needed

      In response to our finding last year, the Commission took appropriate action to
      ensure employee gift certificate awards are included as supplemental wages, but
      formal guidance was not developed. Whenever an employee was awarded a gift
      certificate, the Office of Human Resources (HR) filled out an "Employee Award
      Form," which was issued by the Department of Interior (DOl) for the taxing of
      employee awards. The form was then sent to the Office of Finance where the
      taxable amount on the award was grossed up to include the taxable amount.
      Finance then sent the authorized form to DOl where the reported award amount
      was included in the employee's wages and taxed accordingly. Finally,
      reconciliations were done quarterly between HR and Finance to ensure their
      records of employees who receive awards agreed.

      While the above effort is commendable, written guidelines were not developed to
      document the procedure in the event an individual involved in the procedure is
      reassigned or to inform potential recipients that gift certificate awards are taxable.
      Discussion with several Commission employees revealed they were not aware of
      the tax implications of receiving the award. Instead, the gift certificate award
      recipients will discover it was taxed when reviewing their earning and leave
      statement.


      Recommendation 5
      The Director, Office of Finance should issue formal procedures for processing and
      controlling employee awards to ensure proper tax treatment. These procedures
      should be made available to all Commission employees to provide notice of the
      awards and the applicable taxes.


      Management Response
      The Commission concurred with the recommendation. The Director of Finance
      will issue a written policy on tax payments on employee awards. The Director of
      Finance will also issue explanatory guidelines to all Commission employees on
      how taxes affect award payouts.
      Completion date: June 30, 2007


      OIG Comment
      When accomplished, the above action will satisfy this recommendation.




                                           16
                                                        O{fice ofInspector General
                                                              u.s. International Trade Commission
                                                                                                       Appendix A
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                                               OIG-AR-02-07




                    OFFICEOF "I'HE CHAIRMAN




                      UNITED STATES INTERNATIONAL TRADE COMMISSION

                                              WASHINGTON, DC 20436

              C079-EE-006

              MEMORANDUM

              TO:            Assistant Inspector

              FROM:          Chairman

              DATE:          May 10, 2007

              SUBJECT:       Draft report: Menegeinemtletter: Audit of the U.S.
                             International TredeCommission's FitumcinlStetementsIor Fiscal Years2006
                             and 2005

              In accordance with USITC Directive 1701.2, paragraph 12, the following is the response to
              the subject audit report. Overall, I wish to take this opportunity to commend the cost center
              managers for the Offices of Administration, FacilitiesManagement, and the Chief
              Information Officer, as well as the Director of the Office ofFinance, for their efforts at
              maintaining a financial and procurement system that is consistently accurate and always
              improving. I would also like to express theCotrimission's appreciation to the Office of' the
              Inspector General foridentifying areas that need improvement;

              However.J disagree with the OIG statement that "the Commission continued.to have
              problems managing procurement activity." All purchases, whether by interagency
              agreement, competitive COntract, or purchase card, were found to have been handled
              properly. Further, the suggestion on page 7 that Commission is in danger ofviolation of the
              Anti-Deficiency Act misrepresents the Commission's financial position.

              The following is the Commission's response to the audit recommendations.

                      Recommendation 1
                      The Director, Office of Administration should formal! y remind CCMs of their
                      financial responsibility to ensure procurements are properly recorded and do not
                      exceed the allowable limit. The reminder should also direct CCMs to identify any


                                                            1




                                                       17
                                                                                                      Appendix A
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                                              OIG-AR-02-07




                     employee who may be in need of more training on processing all types of
                     procurement activity and make the training available to the employee.

                    Response
                    Disagree. The Director of Administration and cost center managers are fully aware of
                    their fiscal responsibilities. The status of cost centers, obligations, and expenditure
                    rates are regularly discussed between office directors. Since the 2005 audit,
                    management has significantly improved the monitoring of cost center activity. We
                    created an on-line procurement action log, verify BPA logs more frequentlyjand
                    regularly reconcile the OFM, CIO and AD cost centers. Any problemsidentified
                    during reconciliations are corrected in a timely manner. I am confident the cost
                    center managers are performing their duties diligently.

                    The statement on page 6 of the report that certain transactions could not. be traced to
                    Prismis inaccurate. During a February 27, 2007 meeting. the OIG was provided with
                    complete Prism andFFS documentation on the four transactions cited on page 6 of
                    the audit. All four transactions were found to be entered into both the Prism system
                    and the accounting systems. The Commission invites theOIG to further review this
                    issue.

                    Also on page 6, the report states that an additional 18 transactions were not posted in
                    Prism. However, the Office of Administration reviewed Prism records and found the
                    transactions to be properly entered in the Prism and accounting systems, with the
                    exception of one. transaction. Documentation on these 18 purchase card transactions
                    was provided to 1'heOIG on February 27, 2007. The OIG reference to "a large
                    number of invoices other than the 18 that were noted as not in procurement'tis
                    unclear at this time. The Commission assumes the O1G was reviewing staffworking
                    papers used for monthly reconciliations and not official procurement and accounting
                    records. The Commission invites the OIG to further review these transactions and
                    verify their completeness The Commission has been reconciling the AD, CIO and
                                             «,


                    OFM COst centersregularlyfor over a year and has 'found the exercise to be very
                    effective in improving the accuracy of cost center records.

                    Recommendation 2
                    The Director, Office of Administration should issue procedures requiring CCMs to
                    verify that their requested action was accurately entered into the Commission's
                    procurement records by reViewingOFM's Procurement Requisition Logfor items
                    posted in PRISM and the Blenket Purchase Agreement (BFA) Database. Each ceM
                    should be required to: (1) perform a monthly reconciliation of PRISM and BPA
                    Database with the monthly accounting reports to ensure transactions are accurately
                    obligated and (2) provide the results of the reconciliation to the Office of Finance.




                                                           2




                                                     18
                                                                                                       Appendix A
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                                               OIG-AR-02-07




                    Response
                    Disagree. BPA logs are an important part of cost center management and should be
                    accurate and up to date. We will work to improve in this area. However,
                    reconciliations of cost centers have been occurring since last year. The reconciliation
                    process includes reviewing procurement and accounting records. It is unclear to the
                    Commission What actions the OIG is recommending beyond what the Commission is
                    currently performing.

                    At this time, the requisition log and BPA on-line database provide no guarantee that
                    procurement actions were accurately posted in the Prism system. There is no
                    connection between these online "work distribution'" records, and actualtransactions
                    recorded in either Prism or the accounting system. While reviewing these sources is
                    helpful, it does not guarantee transactions have been recorded properly. Only
                    verification with actual accounting and Prism records constitute an actual
                    reconciliation of the cost centers.

                    As discussed under our response to Recommendation 1, evidence of monthly
                    reconciliations for the AD, CIO, and OFM cost centers was provided toOIG during
                    the course ofthe.audit, bur-all Commission records remain open for inspectioniftlie
                    OIG determines further verification is needed. EPA logs and Prism records are
                    examined as part ofthe normal monthly reconciliation process. This process provides
                    reasonable assurance that transactions are recorded and obligated in a timely and
                    accurate manner. Further, the Director ofFinance has no mechanism for
                    determining whether reconciliations are complete or accurate. HOWeVf!r, Finance
                    staff does provide any assistance necessary to cost centers in performing
                    reconciliations by providing access to the-accounting system,

                    Recommendation 3
                    The Director, Office of Administration should ensure an Administrative Notice is
                    issued which provides guidance lor controlling fixed assets and accountable property.
                    This guidance should clarify procedures and assign responsibilities for controllingall
                    types of assets. The guidance should also:

                                •   Address the responsibilities associated with the operation of the ADP
                                    inventory database; and

                                •   Include a requirement to perform an inventory of fixed assets on.a
                                    quarterly basis in sufficient time to ensure the fixed assets reported on
                                    the quarterly statements are accurate. Also, the fixed assets inventory
                                    list should be shared with the information technology staff to ensure
                                    they are aware of what items are fixed assets for theirproper
                                    completion.ofthe Form UO when transferring a fixed asset.




                                                           3




                                                     19
                                                                                                      Appendix A
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                                              OIG-AR-02-07




                     Response
                    Disagree in part. The CIO has well established procedures and understands the
                     responsibility for maintaining the ADP inventory. During the audit, no single piece of
                     ADP equipment was determined to be missing. It has never been the Intentofthe
                    Commission to assume the inventory of several thousand items would be one
                    hundred percent accurate, as far as the location of individual items, on a daily basis.
                    That would notbe a reasonable, achievable, or costeffeetive goal when tracking
                    small, movable items such as cameras, fax machines, printers, and laptops. These
                    items are easily moved from location to location within the building without the
                    Knowledge of the CIa at the time they are moved. However, theCIO will continue
                    in its efforts to regularly monitor all items and update the inventory list as often as
                    possible. The CIO will continue to perform a full review of the ADP equipment
                    inventory annually, in order to provide reasonable assurance over accountability of
                    these items.

                    Agree in part. The Director of Facilities Management and the Chief Information
                    Officer willensure that quarterly inventories are conducted of Commissionfixed
                    assets (any single item valued at $50,000 or more at the time of.purchase), and the
                    results will be used to prepare quarterly financial statements.

                    Date: June 30, 2007

                    Recommendation 4
                    The Director, Office of Finance should ensure the alternate people who serve as back-
                    up to the primary person responsible for depositing funds are properly trained to
                    make the deposits. Also, procedures should be developed to ensure the alternates are
                    aware when theirservices are needed.


                    Response
                    Agree. The Director.of'FinanceIs restructuring the way fund deposits are handled
                    and controlled. Finance staffwill be trained on the new procedures.

                    Date: May 30, 2007


                    Recommendation 5
                    The Director, Office of Finance should issue formal procedures for processing and
                    controlling employee awards to ensure proper tax treatment. These procedures
                    should be made available to all Commission employees to provide notice of the
                    awards and the applicable taxes.




                                                          4




                                                     20
                                                                                                     Appendix A
Management Letter: Audit of the U.S. International Trade Commission's
Financial Statements for Fiscal Years 2006 and 2005                                             OIG-AR-02-07




                     Response
                     Agree; The Director of Finance will issue a written policy on tax payments 011
                     employee awards. The Director of Finance will also issue explanatory guidelines to
                     all Commission employees on how taxes affect award payouts.

                    June 30, 2007


              cc:    Commissioners




                                                     21
